HHS/OIG, Audit - "Review of Duplicate Acute Care Hospital Expenditures Claimed by the State of New Jersey to the Disproportionate Share Hospital Program," (A-02-01-01037)
Department
of Health and Human Services
"Review of Duplicate Acute Care Hospital Expenditures Claimed by the
State of New Jersey to the Disproportionate Share Hospital Program," (A-02-01-01037)
February 25, 2003
Complete Text of Report is available in PDF format
(2.59 MB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that New Jersey claimed duplicate reimbursement
for acute care hospital claims totaling approximately $54.9 million (federal
share $27.5 million) under the disproportionate share hospital (DSH) program.
The state blamed the error on a computer system's error of a contractor hired
by the state, on a contingency fee basis, to generate increased federal reimbursement
by identifying and submitting state expenses not previously claimed.  We
recommended that New Jersey refund $30.4 million (which includes interest applicable
to the overpayment) to the Federal Government.  We also recommended that
the state thoroughly review all work performed by outside contractors and consultants
to assure the veracity of future claims to the Federal Government.